Appendix 1
Case 5:19-cv-04052-HLT-KGG Document 81 Filed 12/09/19
Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
JOREL SHOPHAR and
SASUAH SHOPHAR,
Plaintiffs,

Case No.
5:19-cv-04052-HLT

v.
UNITED STATES OF AMERICA, et al.,
Defendants.

MEMORANDUM AND ORDER
Plaintiffs Jorel Shophar^ and Sasuah Shophar,
9

proceeding pro se, bring this action against various
entities and individuals who, they contend, violated
their constitutional rights when they “illegally”
placed two of Plaintiff Jorel Shophar’s minor children
in state custody. Plaintiffs seek a writ of habeas
corpus directing that the children be returned to
their custody and also assert claims under 42 U.S.C.
§ 1983 and a number of other federal statutes. This
is at least the fourteenth lawsuit filed by Plaintiff
Jorel Shophar in various state and federal courts
stemming from these custody issues.3
la

1.

Plaintiff Jorel Shophar also purports to bring this action
as “next friend” on behalf of his five minor children: J.S.
(age 6) and B.S. (age 7), along with siblings E.S., Z.S., and
R.S. (ages 3, 13, and 16, respectively). But “under Rule
17(c) and 28 U.S.C. § 1654, a minor child cannot bring
suit through a parent acting as next friend if the parent
is not represented by an attorney.” Meeker v. Kercher, 782
F.2d 153, 154 (10th Cir. 1986). The court should raise
this issue sua sponte. Oltremari by McDaniel v. Kan.
Soc. & Rehab. Serv., 871 F. Supp. 1331, 1361 (D.
Kan. 1994). Therefore, any claims asserted on behalf of
these children are dismissed.

2.

Because Plaintiffs proceed pro se, their pleadings are
construed liberally and held to a less stringent standard
than formal pleadings drafted by lawyers. See Hall v.
Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991). The
Court does not, however, assume the role of advocate.
Id.

3. In a case filed by Plaintiff Jorel Shophar in the U.S.
District Court for the Eastern District of Michigan, the
judge noted that Plaintiff Jorel Shophar had filed
thirteen lawsuits arising out of his custody dispute—
making this (at least) the fourteenth. See Shophar v.
Gorski, 2018 WL 4442268, at *4 (E.D. Mich. 2018).
Indeed, in that case, the judge—noting Plaintiff Jorel
Shophar’s “disturbing litigation conduct”—entered a
permanent injunction barring Plaintiff Jorel Shophar
from filing any new federal actions in that district
without obtaining leave of court. Id.

Case 5:19-cv-04052-HLT-KGG Document 81 Filed 12/09/19

2a

Page 3 of 7

Defendants Kathleen Sloan Erica Miller,
Kansas Department of Children and Families,
Stacey Bray, Richard Klein, KVC Health, Saarah
Ahmad, and Kimberly Smith move to dismiss
Plaintiffs’ petition pursuant to Rules 12(b)(1) and
12(b)(6).4 Docs. 34, 57, 76. As more fully explained
below, the Court finds that it lacks subject matter
jurisdiction over the asserted claims and, therefore,
dismisses this case without prejudice.
I.

BACKGROUND

This action is essentially a challenge to a state
court child custody order. Plaintiff Jorel Shophar and
a woman named Krissy Gorski had two children
together, identified herein as J.S. and B.S. On
August 12, 2015, Gorski took the children away from
Plaintiff Jorel Shophar, went to a safe home, and
reported to various agencies that he was abusing her
and the children. Ultimately, in September 2015, the
District Court of Johnson County, Kansas placed J.S.
and B.S. into custody of the Kansas Department of
Children and Families (“DCF’); the children were
accordingly placed with foster parents.
Although the petition is somewhat unclear on
this point, subsequent to the initial September 2015
custody ruling, a Child in Need of Care (“CINC”) case
pertaining to the two children was initiated with

3a

the state court. In connection with those
proceedings, in an order dated April 22, 2019
(which Plaintiffs include in their petition), the state
court found that J.S. and B.S. were “children in need
of care” and ordered that they remain in state
custody. A little over a month later, on May 24, 2019,
Plaintiffs filed a “petition for emergency writ
of
habeas corpus,” naming as defendants a number of
individuals and entities involved in the state court
child custody proceedings: Kathleen Sloan (the judge
who presided over the proceedings); Erica Miller
(assistant district attorney:) DCF; Stacey Bray (DCF
case worker); Richard Klein (guardian
4 Judge Sloan, Miller, DCF, and Bray also move pursuant to
Rule 12(b)(5), alleging insufficient service of process as a basis
for dismissal. See Doc. 34. But the Court notes that the docket
reflects that Plaintiffs have since effected service on these
defendants. Docs 49, 51, 52, 53. And, regardless, because the
Court ultimately finds dismissal is warranted under Rule
12(b)(1) (see supra Part II), the Court does not reach the merits
of this argument.
Case 5:19-cv-04052-HLT-KGG Document 81 Filed 12/09/19 Page 4 of 7

ad litem); KVC Health (“KVC”) (a private child
advocacy organization); Saarah Ahmad (KVC case
worker); Kimberly Smith (KVC case worker); Marc
Berry (Gorski’s court-appointed attorney); Paul LA
Fleur (Plaintiff Jorel Shophar’s brother); and
Teena and Nathan Wilkie (foster parents).

4a

Plaintiffs also name the United States of America as
a defendant to this case.5
Plaintiffs’ petition—which is often nonsensical
and difficult to understand—pertains to the alleged
treatment of J.S. and B.S. while in state custody.
Generally, Plaintiffs allege the children have been
subjected to physical, sexual, and emotional abuse
while in the custody of Gorski (who is not a defendant
to this action) and their foster parents. Plaintiffs
claim that B.S. nonetheless remains in the custody of
his foster parents and that J.S. is currently in a
“psychiatric hospital.” Although the exact nature of
the claims in this action is somewhat difficult to
decipher—indeed, Plaintiffs’ petition references a
laundry list of federal statutes and constitutional
rights6—Plaintiffs ultimately appear to allege various
due process violations stemming from the state court
custody proceedings. Plaintiffs request monetary,
injunctive, and declaratory relief, and also seek a writ
of habeas corpus directing that J.S. and B.S. be
returned to their custody.
II.
ANALYSIS
Eight of the thirteen named defendants—namely,
Judge Sloan, Miller, DCF, Bray, Klein, KVC, Ahmad,
and Smith—now move to dismiss pursuant to Rules
12(b)(1) and 12(b)(6), arguing, generally, that the
Court lacks subject matter jurisdiction over this
action and that Plaintiffs fail to state a claim for

5a

5 The Court notes that Defendants Berry, LaFleur, Teena
Wilkie, Nathan Wilkie, and the United States of America are
not parties to the pending motions.
6 The various statutes and provisions raised by Plaintiffs
include: the “Child Welfare Act Victims of Abuse Act”; the
“Interstate Compact Placement of Children”; the “Fostering
Connections Success Act”; the “Victims of Abuse Act”; “Social
Security Act IV-E”; 18 U.S.C.§ 1519 (falsification of records);
18 U.S.C. § 1201 (kidnapping); 18U.S.C. § 2258 (failure to
report child abuse); (failure to report child abuse); 18
U.S.C. § 2261A(2)(B) (harassment); 28 U.S.C. § 4101
(defamation); 42 U.S.C. § 1983; and the Fourth and
Fourteenth Amendments.
Case 5:19-cv-04052-HLT-KGG Document 81 Filed 12/09/19 Page 6 of 7

relief. Docs. 34, 57, 76. Because federal courts have
an independent obligation to determine whether
subject matter jurisdiction exists (even in the
absence of a challenge from any party), the Court
first addresses its jurisdiction. See Image Software,
Inc. v. Reynolds & Reynolds Co., 459 F.3d 1044, 1048
(10th Cir. 2006); Marcus v. Kan. Dep’t of Revenue,
170 F.3d 1305, 1309 (10th Cir. 1999) (holding that
where the court lacks subject matter jurisdiction, it
“must dismiss the cause at any stage of the
proceedings in which it becomes apparent that
jurisdiction is lacking”). In doing so, the Court finds
that it lacks jurisdiction to consider Plaintiffs’ claims
on three separate bases. The Court addresses each
6a

jurisdictional defect in turn.
First, “it is well established that federal courts
lack jurisdiction over the whole subject of the
domestic relations of husband and wife, and parent
and child.” Gordon v. Respondent, 2007 WL 628205,
at *1 (D. Kan. 2007); see also Ankenbrandt v.
Richards, 504 U.S. 689, 703 (1992) (noting that “[t]he
whole subject of the domestic relations of husband
and wife, parent and child, belongs to the laws of the
States and not to the laws of the United States”)
(internal quotations omitted). This rule—known as
the “domestic-relations exception”—means that “a
federal court cannot ‘reopen, reissue, correct, or
modify’ an order in a domestic-relations case.” Alfaro
v. Cty. of Arapahoe, 766 F. App’x 657, 659 (10th
Cir. 2019) (internal quotations omitted). Here,
Plaintiffs’ petition—seeking a writ directing that J.S.
and B.S. be returned to their custody—is essentially
a request to “undo” the state court’s order placing
J.S. and B.S. in state custody. Therefore, the relief
Plaintiffs seek is, at least in large part, that the Court
invalidate the child custody order entered by the
state court, which is essentially a request to modify
that order. The Court lacks jurisdiction to issue such
relief.
Second, habeas writs are not available in child
custody matters. Indeed, “federal habeas has never
been available to challenge parental rights or child
custody. “Lehman v. Lycoming Cty. Children’s Servs.

7a

Agency, 458
Case 5:19-cv-04052-HLT-KGG Document 81 Filed 12/09/19
Page 8 of 7

U.S. 502, 511 (1982); see also Roman-Nose v. N.M.
Dep’t of Human Serus., 967 F.2d 435, 436 (10th
Cir. 1992) (“A state-court judgment involuntarily
terminating parental rights cannot be collaterally
attacked by way of a habeas corpus petition.”); Braun
v. Stovall, 1996 WL 211737, at *1 (10th Cir. 1996)
(holding that “[federal courts do not have
jurisdiction under § 2254 to consider collateral
challenges to state child-custody decisions”). And the
Supreme Court has recognized that “extending the
federal writ to challenges to state child- custody
decisions—challenges based on alleged constitutional
defects collateral to the actual custody decision—would be
an unprecedented expansion of the jurisdiction of the lower
federal courts.” Lehman, 458 U.S. at 512 (emphasis added).
Again, Plaintiffs’ challenge is essentially a request to “undo”
the state court’s order placing Plaintiff Jorel Shophar’s
children in state custody. But Plaintiffs cannot use federal
habeas relief as a vehicle to undo the state court custody
decision. And, similarly, the Court does not have jurisdiction
to consider Plaintiffs’ claims for violations of due process
collateral to that custody decision.
Third, and finally, the Court finds that, to the extent
Plaintiffs contest actions taken by the state court in the
underlying custody proceedings, it lacks jurisdiction to

8a

consider such claims under the Rooker-Feldman doctrine.
The Rooker-Feldman doctrine provides that federal district
courts generally lack subject matter jurisdiction over claims
that seek review of adverse state court judgments. See D.C.
Court of Appeals v. Feldman, 460 U.S. 462, 482 (1983)
(“[A] United States District Court has no authority to review
final judgments of a state court in judicial proceedings.”);
Rooker v. Fidelity Tr. Co., 263 U.S. 413,416 (1923) (holding
that “no court of the United States other than [the Supreme
Court] could entertain a proceeding to reverse or modify [a
state court’s] judgment for errors”); PJ ex rel. Jensen v.
Wagner, 603 F.3d 1182, 1193 (10th Cir. 2010)
Case 5:19-cv-04052-HLT-KGG Document 81 Filed 12/09/19
Page 9 of 7

(“Because it implicates our subject matter
jurisdiction, we address [whether] the RookerFeldman doctrine bars this entire § 1983 suit before
turning to the merits of the case.”).
Specifically, the doctrine deprives federal courts
of jurisdiction to consider a claim when the
plaintiff—a “state-court loser”—is “complaining of
injuries caused by state-court judgments rendered
before the district court proceedings commenced and
inviting district court review and rejection of those
judgments.” ExxonMobil Corp. u. Saudi Basic Indus.
Corp., 544 U.S. 280, 284 (2005); see also McDonald v.
Colo.’s 5th Judicial Dist., 646 F. App’x 697, 699 (10th
Cir. 2016). This prohibition extends to all state court

9a

decisions, final or otherwise, and covers both claims
actually decided by the state court and issues
“inextricably intertwined” with such claims.
Atkinson-Bird v. Utah, Div. of Child & Family Servs.,
92 F. App’x 645, 647 (10th Cir. 2004). To determine
whether Rooker-Feldman applies, the Tenth Circuit
instructs the district court to first identify the state
court judgment that the court cannot undo or review
in any way, and, second, determine whether the
plaintiffs claim alleges injury caused by the state
court judgment that the court would have to review
and reject in order for the plaintiff to succeed.
McHenry v. Burch, 2010 WL 5287732, at *4 (D. Kan.
2010) (citing PJ exrel. Jensen, 603 F.3d at 1193-94).
The Court accordingly first identifies the state
court actions it cannot undo or review: here, the child
custody order related to J.S. and B.S. Second, the
Court analyzes whether Plaintiffs’ asserted claims allege
injury caused by that order that the Court would have to
review and reject in order for Plaintiffs to prevail. Here, as
discussed above, Plaintiffs request custody of the children
and assert injuries related to the manner in which the
state court custody proceedings were conducted. In other
words, Plaintiffs’ claims are little more than a thinly
disguised effort to overturn, or at least call into question the
validity of, the rulings entered in the state court child custody
proceedings. The relief Plaintiffs request is precisely the type
of claim encompassed by
Case 5:19-cv-04052-HLT-KGG Document 81 Filed 12/09/19

10a

Page 11 of 7

the Rooker-Feldman doctrine. The Court therefore may not
consider Plaintiffs’ challenges to the state court child custody
proceedings and any such claim is barred.
For all of these reasons, the Court finds that it lacks
subject matter jurisdiction over Plaintiffs’ claims in this
action and, accordingly, those claims are dismissed
pursuant to Rule 12(b)(1) without prejudice.78
III.

CONCLUSION

THE COURT THEREFORE ORDERS that the
Motion to Dismiss filed by Defendants Kathleen
Sloan, Erica Miller, Kansas Department of
Children and Families, and Stacey Bray (Doc. 34)
is GRANTED.
THE COURT FURTHER ORDERS that the
Motion to Dismiss filed by Defendants KVC Health,
Saarah Ahmad, and Kimberly Smith (Doc. 57) is
GRANTED.
THE COURT FURTHER ORDERS that the
Motion to Dismiss filed by Defendant Richard Klein
(Doc. 76) is GRANTED.
This case is hereby DISMISSED WITHOUT
PREJUDICE against all Defendants for lack of
subject matter jurisdiction.

11a

IT IS SO ORDERED.
Dated: December 9. 2019

/s/ Holly L. Teeter
HOLLY L. TEETER
UNITED STATES DISTRICT JUDGE

^

Even to the extent this action is not subject to dismissal for
lack of subject matter jurisdiction, Plaintiffs’ claims also
merit dismissal under Rule 12(b)(6) for failure to state a
claim for the reasons set forth in the dismissal briefing.
Docs. 34-35, 57-58, 76-77.

8

The Court’s conclusion that it lacks subject matter
jurisdiction requires dismissal of Plaintiffs’ claims against
all Defendants. Although all Defendants have not attacked
the Court’s jurisdiction (see supra note 5, noting that not
all Defendants have moved to dismiss), the Court again
notes its power to determine sua sponte that it cannot
assert subject matter jurisdiction over this matter. See
Image Software, 459 F.3d at 1048 (because federal courts
have an independent obligation to determine whether
subject matter jurisdiction exists, a court may sua sponte
raise that question at any stage in the litigation). Finally,
the Court also notes that the same arguments raised with
respect to subject matter jurisdiction in this case apply
equally to all Defendants, and Plaintiffs have had the
opportunity to fully respond to those arguments.

12a

Case 5:19-cv-04052-HLT-KGG Document 82 Filed 12/09/19
Page 1 of 1

United States District Court
...... DISTRICT OF KANSAS JOREL SHOPHAR,
Next of Friends minor E.S., minor Z.S.,
Minor R.S., minor B.S., minor J.S.,
SASUAH SHOPHAR,
Plaintiffs,
v.

Case No: 5:19-CV-04052-HLT-KGG

UNITED STATES OF AMERICA, KATHLEEN L.
SLOAN, ERICA MILLER, KANSAS
DEPARTMENT
OF CHILDREN AND FAMILIES, STACEY
BRAY, RICHARD KLEIN, MARC BERRY, KVC
HEALTH, SAARAH AHMAD, KIMBERLY
SMITH, PAUL LAFLEUR,
TEENA WILKIE, NATHAN WILKIE,
Defendants

JUDGMENT IN A CIVIL CASE

13a

□ Jury Verdict. This action came before the Court for
a jury trial. The issues have been tried and the jury
has rendered its verdict.
IEI Decision by the Court. This action came before the
Court. The issues have been considered and a decision has been
rendered. Pursuant to the Memorandum and Order (Doc. 81),
judgment is entered in favor of the Defendants United States of
America, Kathleen L. Sloan, Erica Miller, Kansas Department of
Children and Families, Stacey Bray, Richard Klein, Marc Berry,
KVC Health, Saarah Ahmad, Kimberly Smith, Paul LaFleur, Teena
Wilkie and Nathan Wilkie against the Plaintiffs Jorel Shophar, next
friends of minor E.S., minor Z.S., minor R.S., minor B.S., minor
J.S. and Sasuah Shophar and this action is dismissed.
IT IS SO ORDERED.
TIMOTHY O’BRIEN
CLERK OF THE
COURT
Dated: December 9, 2019

/s/ M. Deaton
By Deputy Clerk

14a

Appendix 2
Case 2:20-cv-02280-EFM-TJJ Document 7-1 Filed 12/02/20
Page 1 of 9
Appellate Case: 19-3281 Document: 010110446135
Date Filed: 12/02/2020 Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

JOREL SHOPHAR; SASUAH
SHOPHAR,

FILED
United States of
Appeals
Tenth Circuit
December 2, 2020

Plaintiffs - Appellants,

Christopher M.
Wolpert

V.

UNITED STATES OF AMERICA
KATHLEEN L. SLOAN; ERICA
MILLER; KANSAS DEPARTMENT
OF CHILDREN AND FAMILIES;
STACEY BRAY; RICHARD KLEIN;
MARC BERRY; KVC HEALTH;
SAARAH AHMAD; KIMBERLY
SMITH; PAUL LAFLEUR; TEENA
WILKIE; NATHAN WILKIE,

N.19-3281
(D.C. No. 5:19CV-040-HLT-KGG)
(D. Kan.)

Defendants - Appelles.

ORDER AND JUDGMENT*
Before HARTZ, McHUGH, and CARSON,
Circuit Judges._
15a

Jorel and Sasuah Shophar, husband and wife, appeal
from the district court’s order holding that the federal
courts have no power to grant or restore Mr.
Shophar’s
After examining the briefs and appellate record, this
panel has determined unanimously that oral argument would
not materially assist in the determination of this appeal. See
Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is
therefore ordered submitted without oral argument. This
order and judgment is not binding precedent, except under the
doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Case 2:20-cv-02280-EFM-TJJ Document 47-1 Filed
12/02/20 Page 2 of 9
Appellate Case: 19-3281 Document: 010110446135
Filed: 12/02/2020 Page: 2

Date

custody over two children he fathered with a
woman named Krissy Gorski.
We have
jurisdiction under 28 U.S.C. § 1291 and affirm.
I. BACKGROUND & PROCEDURAL
HISTORY
This is the second time Mr. Shophar has brought
16a

the matter of his and Ms. Gorski’s children to our
attention. See Shophar v. City of Olathe, 723 F.
App’x 579 (10th Cir. 2018), cert, denied sub nom.
Shophar v. Kansas, 140 S. Ct. 454 (2019). As we
recounted in our prior disposition, Ms. Gorski left
Mr. Shophar in August 2015, taking their children
with her. See id. at 580. Kansas authorities
investigated Mr. Shophar for domestic abuse, which
he denied. See id. He in turn accused Ms. Gorski of
prostitution, drug use, and extortion.
See id.
Eventually, Kansas placed the children in state
custody. See id.
In November 2015 and April 2016, Mr.
Shophar filed pro se lawsuits in the United States
District Court for the District of Kansas, naming
as defendants various persons, organizations, and
governmental entities involved in these events.
See id. At 580, 581. He attempted to allege
numerous causes of action arising from the
defendants’ purported “support” of Ms. Gorski. Id.
The district court dismissed both lawsuits for
failure to state a claim, See id. at 581. We
affirmed. See id. at 580-82.
In May 2019, Mr. Shophar, now joined by Mrs.
Shophar, filed a new lawsuit in the United States
District Court for the Northern District of Illinois.
They captioned their complaint “petition for
emergency writ of habeas corpus” and invoked two
federal habeas statutes, 28 U.S.C. §§ 2241 and

17a

2254.
R. at 13 (capitalization normalized;
emphasis omitted). Claiming next-friend status to
Mr. Shophar’s
Case 2:20-cv-02280-EFM-TJJ Document 471 Filed 12/02/20 Page 3 of 9
Appellate Case: 19-3281 Document: 010110446135
Filed: 12/02/2020 Page: 3

Date

children with Ms. Gorski, the Shophars argued
that the children were “illegally being held in the
State of Kansas as wards of the State of Kansas.”
Id. (capitalization normalized; emphasis omitted).
The Shophars named as defendants:
□ the United States, which has allegedly failed
to supervise the state and local agencies that
receive federal child-welfare funding;
□ Johnson County, Kansas, where child-custody
proceedings took place;
□ Kathleen L. Sloan, judge of the Johnson
County District Court, who presided over
the child-custody proceedings;
□ the Kansas Department of Children and Families
(DCF);
□ Stacey Bray, a DCF caseworker;
□ KVC Health, a child-advocacy group and DCF
18a

contractor;
□ Saarah Ahmad, a KVC Health caseworker;
□ Kimberly Smith, also a KVC Health caseworker;
□ Erica Miller, a Johnson County assistant
district attorney involved in the child-custody
proceedings;
□ Richard Klein, the children’s guardian ad litem;

□ Marc Berry, Ms. Gorski’s court-appointed
attorney;
□ Paul LaFleur, Mr. Shophar’s estranged
brother who participated in the custody
proceedings;
□ Teena Wilkie, a friend of Ms. Gorski who became
a foster parent for the children; and
□ Nathan Wilkie, Teena’s husband, who also
became a foster parent for the children.
The Shophars accused the defendants of violating the
children’s Fourth and Fourteenth Amendment
rights, Mr. Shophar’s Fourth and Fourteenth
Amendment rights, several statutes relating to child
welfare and civil rights, and certain federal criminal

19a

statutes. In addition to habeas relief for the children,
the Shophars sought various forms of injunctive and
declaratory relief, and damages from at least DCF,
KVC Health, LaFleur, and the Wilkies.
A little more than a month after the complaint
was filed, the Northern District of Illinois transferred
the case to the District of Kansas, stating that “[t]he
sole venue for a 28 U.S.C. § 2241 habeas corpus
petition is the judicial district where the individuals
whose release are being sought are located.” R. at 65.
Following transfer, eight of the fourteen defendants
moved to dismiss. The district court granted those
motions and dismissed all defendants without
prejudice, including those who had yet to appear or
move for dismissal. The district court held that it
must dismiss all claims brought by the Shophars
purportedly on the children’s behalf, because “a
minor child cannot bring suit through a parent acting
as next friend if the parent is not represented by an
attorney.” Meeker v. Kercher, 782 F.2d 153, 154 (10th
Cir. 1986) (construing Fed. R. Civ. P. 17(c)). But cf.
Adams ex rel. D.J.W. v. Astrue, 659 F.3d 1297, 1301
(10th Cir. 2011) (holding that this rule does not apply
to parents of children appealing a denial of Social
Security benefits),
And it said that it lacked
jurisdiction over the claims brought by the parents
themselves for three reasons: (1) federal courts have
Case 2:20-cv-02280-EFM-TJJ Document 47-1
Filed 12/02/20 Page 5 of 9

20a

Appellate Case: 19-3281 Document: 010110446135
Date Filed: 12/02/2020 Page: 5

no jurisdiction over child-custody disputes, see 3E
Charles Alan Wright et al., Federal Practice &
Procedure § 3609.1, text following n.32 (3d ed., Apr.
2020 update) (“[Despite recent cases cutting back on
the scope of the domestic relations exception,] child
custody generally is a matter that should be viewed
as being at the heart of the domestic relations
exception so that only special circumstances should
bring it within the purview of the jurisdiction of a
federal court.”),' (2) the writ of habeas corpus does not
extend to child-custody determinations, see Lehman
v. Lycoming Cty. Children’s Servs. Agency, 458 U.S.
502, 511 (1982) (“federal habeas has never been
available to challenge parental rights or child
custody,” including the custody of foster or adoptive
parents over a child); and (3) the Rooker-Feldman
doctrine prohibits federal courts (other than the
Supreme Court) from reviewing state-court decisions,
such as the child-custody decisions at issue here, see
D.C. Court of Appeals v. Feldman, 460 U.S. 462, 42
(1983).
II.

ANAYLSIS

We review a district court’s real-party-in-interest
rulings for abuse of discretion. See Esposito v.
United States, 368 F.3d 1271, 1273 (10th Cir.

21a

2004). We review de novo a district court’s
conclusion
that
it
lacks
subject-matter
jurisdiction. See Colo. Envtl. Coal. v. Wenker, 353
F.3d 1221, 1227 (10th Cir. 2004).
In response to the district court’s decision
prohibiting them from acting as next friends to their
children, the Shophars assert, without elaboration,
that “[the children’s] cases can be brought by their
adult Next Friend when filing a Habeas Corpus for
Case 2:20-cv-02280-EFM-TJJ Document 47-1 Filed 12/02/20
Page 6 of 9
Appellate Case: 19-3281
Document: 010110446135
Date Filed: 12/02/2020 Page: 6

State or Federal cases.” Aplt. Opening Br. at 9.
“[S]tray sentences like these are insufficient to
present an argument.” Eizember v. Trammell, 803
F.3d 1129,1141 (10th Cir. 2015).
The Shophars fail to even give us a lead to
authority that might support their assertion. They
therefore waive whatever challenges they may have
had to this basis for dismissal. See Adler v. Wal-Mart
Stores, Inc., 144 F.3d 664, 679 (10th Cir. 1998)
(“Arguments inadequately briefed in the opening
brief are waived . . . .”).
The Shophars similarly fail to present an
adequate argument that their claims for declaratory
or injunctive relief are not barred by the district

22a

court’s first two grounds for holding that it lacked
jurisdiction: the doctrines that habeas jurisdiction
does not extend to questions of child custody and that
federal courts ordinarily lack jurisdiction to decide
child-custody questions. Their challenges to those
rulings are limited to an attack on the district court’s
underlying premise, i.e., that this lawsuit is
fundamentally a child-custody dispute. See Aplt.
Opening Br. at 4 (“The Action is not a challenge to a
State custody order . . . .”); id. at 6 (“The Court errs to
document the Appellants are looking to overturn a
custody ruling.”); id. at 8 (“The Plaintiffs are not [asking]
the Federal Court of Kansas to ‘return to their custody.’”
(brackets in original)); id. at 13 (“This case i[s] not a
‘custody’ matter between a father and a mother.”). This
is so, they explain, because “[Mr. Shophar] has custody
of his children by DEFAULT of Krissy Gorski’s criminal
conduct.” Id. at 6. The Shophars appear to be saying
that Gorski has forfeited custody by operation of law, so
an order

Case 2:20-cv-02280-EFM-TJJ Document 47-1 Filed 12/02/20
Page 7 of 9
Appellate Case: 19-3281 Document: 010110446135
Date Filed: 12/02/2020 Page: 7

returning the children to Mr. Shophar would not
interfere with a state-court custody order.
23a

This attempt at clever lawyering fails. There is no
reasonable way to read the Shophars’ complaint
(however obscure much of the language is) as
anything but an attempt to obtain custody of the
children (and seek damages, which will be addressed
shortly). To the extent that the complaint seeks an
injunction to give Mr. Shophar custody of the
children or seeks a declaration that he is entitled to
that custody, the district court lacked jurisdiction to
resolve the merits.
There remain the damages claims in the
complaint.
But as best we can decipher that
pleading, all the alleged damages suffered by the
Shophars resulted from the court decisions regarding
custody. In other words, an essential element of their
damages claims is that the state courts’ various
custody decisions were in error. And this court has
recognized that a claim is barred by Rooker-Feldman
when the “claim has merit only if the state-court . . .
order was unlawful.” Campbell v. City of Spencer,
682 F.3d 1278, 1284 (10th Cir. 2012). The Shophars’
arguments against application of Rooker-Feldman
amount to little more than complaints that they have
been wronged by violations of federal law and a
federal court must therefore afford them relief. But
the lower federal courts have no authority—that is,
no jurisdiction—to give relief from-court judgments,
whether the Shophars participated in the state court
proceedings (and presumably lost) or were mere

24a

interested bystanders. The district court’s
application of Rooker-Feldman was correct.

Case 2:20-cv-02280-EFM-TJJ Document 47-1 Filed 12/02/20
Page 8 of 9
Appellate Case: 19-3281 Document: 010110446135
Filed: 12/02/2020

Date

Finally, if there is any respect in which the
Shophars’ claims fall outside the reasons for
dismissal relied upon by the district court, they have
not explained it to us. When faced with a similar
situation, where the plaintiff had “made her
complaint unintelligible by scattering and concealing
in a morass of irrelevancies the few allegations that
matter,” we stated that “it hardly matters whether
the district court dismissed [plaintiffs] complaint
because it believed all of her claims were barred by
Rooker-Feldman or simply because it could not
separate the wheat from the chaff.” Mann v.
Boatright, 477 F.3d 1140, 1148 (10th Cir. 2007)
(internal quotation marks omitted). Then, as here,
“[i]t was not the district court’s job to stitch together
cognizable claims for relief from the wholly deficient
pleading that [plaintiff] filed. As we have frequently
noted, we are loath to reverse a district court for
refusing to do the litigant’s job.” Id.
We conclude that the district court properly

25a

dismissed without prejudice all claims for the reasons
it expressed.
III.

CONCLUSION
We affirm the district court’s judgment.
Entered for the Court
Harris L Hartz
Circuit Judge

26a

Appendix 3
Case 1:19-cv-03512 Document #7 Filed 06/27/19
Page 1 of 1 PagelD #93

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN
DISTRICT OF ILLINOIS
Jorel Shophar and
Susauh Shophar,
Petitioners,
v.

)
)

)
)

Case No. 19 C 3512
Judge Charles R. Norgle

)

United States of
America, et al.,
Respondents

)
)
)

ORDER
This case is transferred forthwith to the United
States District Court for the District for Kansas,
Topeka, Kansas for preliminary consideration. The
Clerk is instructed to close this case number on this
Court’s docket.
STATEMENT
Petitioners Jorel and Susauh Shophar bring this
pro se habeas corpus action under 28 U.S.C. § 2241
seeking the release of Jorel Shophar’s children. The
children are located in Kansas where they are wards
27a

of the state. The case’s only connection to Illinois is
that Jorel and Susauh Shophar reside in Illinois.
The solve venue for a 28 U.S.C. § 2241 habeas corpus
petition is the judicial district where the individuals
whose release are being sought are located. Webster
v. Daniels, 784 F.3d 1123, 1144 (7*h Cir. 2015) (en
banc) (citing Rumsfeld v. Padilla, 542 U.S. 426, 43435 (2004)). The children are in Kansas, not Illinois.
This case may only be brought before the United
States District Court for the District of Kansas. 28
U.S.C. § 96.
Although the case cannot be brought before this
Court, the case maybe transferred to the District of
Kansas pursuant to 28 U.S.C. §1631. Consequently,
the Court transfers this action forthwith to the United
State District Court of Kansas, Topeka, Kansas for
preliminary consideration. The Clerk is instructed to
close this case number on this Court’s docket.
Date: 6-27-19

/si Charles Norgle

28a

Appendix 4
IN THE DISTRICT COURT OF JOHNSON COUNTY,
KANSAS
Child In Need of Care Proceedings Under
Chapter 38 of K.S.A.
In the Interest of
S
Date of Birth

Case No. 18JC00230

S
B
Date of Birth

Case No. 18JC00229
Division 10

JOURNAL ENTRY
NOW ON this 3rc^ day of April, 2019, the
above-captioned cases come on for review before the
Honorable Kathleen L. Sloan, Judge of the District
Court, presiding.
Appearances are as follows: The State of
Kansas appears by Assistant District Attorney Erica
A. Miller; the minor children appear naught but by
Court appointed Guardian ad Litem, Richard P.
Klein; the mother appears naught, but by Court
appointed counsel, Marc H. Berry; the father appears
by telephone, pro se; Teena Wilkie, placement,
appears in person, pro se; the paternal aunt and uncle
appear in person, pro se. DCF is represented by
Stacey Bray and Amanda BainWysocki and KVC is

29a

represented by Saarah Ahmad.
The Court upon review of the file, finds and
concludes that all parties have been properly noticed
and served pursuant to the statute.
Previously, on October 18, 2018, the mother
entered a no contest statement that the children are
children in need of care pursuant to K.S.A. 38-2202
(d)(2), which is accepted by the Court as freely,
voluntarily, and upon advice of counsel made. That
same date, the Guardian ad Litem entered a
stipulation that the children are children in need of
care pursuant to K.S.A. 38-2202 (d)(1); (d)(2); (d)(3)
and (d)(ll).
Now, on the 3rd day of April, 2019, the State
presents evidence as to the father in the form of
sworn testimony and rests. No other parties present
evidence. The Court permits the father to listen to the
trial by telephone, but he is not permitted to testify
because he has not made arrangements to be sworn
and was given adequate notice of the trial date in
order to make arrangements to be sworn or
Clerk of the District Court, Johnson County Kansas
04/23/19 09:19am DM

30a

appear in person.
Based upon the evidence presented by the
State, the stipulation of the Guardian ad Litem, the
no contest statement of the mother and the
acceptance of the facts outlined in the petitions, the
Court finds and concludes, by clear and convincing
evidence, that the children are children in need of
care pursuant to K.S.A. 38-2202 (d)(1); (d)(2); (d)(3)
and (d)(ll). The Court adjudicates the same. The
Court then permits the father to speak to the Court.
He objects to the procedure of trial, which is noted
and overruled by the Court. The Court finds good
cause to set out disposition. The Court grants the
State’s Motion to Dismiss Appeal. The Court takes
up the father’s Motion to Send Children to Sasuah
Shophar to State of Illinois and denies the motion.
The Court next takes up the fathers Motion to Return
Children to Jorel Shophar to State of Michigan ICPC.
The Court takes the motion under
advisement, but agrees that if the father provides his
home address to the court then the Court will issue a
Regulation 7 ICPC order.
The Court further finds that all previous
orders of the Court remain in full force and effect. The
Court further orders that the child remains in DCF
custody.
The Court finds and concludes the matter
should be and is hereby continue May, 2019, at 1:00
P.M. in Division 10 disposition.

31a

/s/ KATHLEEN SLOAN
Dated: 04/22/19

IT IS SO ORDERED

JUDGE OF THE DISTRICT COURT
Division No. 10
RESPECTFULLY SUBMITTED BY:
/s/ ERICA MILLER
Dated: 04/22/19
Erica A. Miller, #24544/rae

Clerk of the District Court, Johnson County Kansas
04/23/19 09:19am DM

32a

Appendix 5
IN THE DISTRICT COURT OF JOHNSON COUNTY,
KANSAS
Child In Need of Care Proceedings Under
Chapter 38 of K.S.A.
In the Interest of:
Case No. 18JC00229
A MALE CHILD UNDER AGE OF 18 YEARS
Division 10
ORDER
ICPC REGULATION 7 EXPEDITED PLACEMENT
Pursuant to K.S.A 38-1201 et. seq.
NOW ON THIS Z?7*' day of September, 2019, the
motion pursuant to Regulation 7 promulgated
pursuant to K.S.A. 38-1202, Article VII of the
Interstate Compact on the Placement of Children
(ICPC); comes on for hearing before Judge
KATHLEEN SLOAN.
The Court finds that jurisdiction and venue are
proper. Notice to parties, interested parties and those
required to receive notice has been given as required
by law. The Court, having heard evidence, reviewed
exhibits including required by Paragraph 7 of
Regulation 7, considered the statements of parties
and/or the parties being in agreement, finds as
follows:
1. Pursuant to Article III (d) of the Compact, the
child noted above may only be placed in

33a

another states after receipt of written
notification from the receiving state that the
proposed placement does not appear to be
Contrary of the interests of the child.
2. Pursuant to Article V(a) of the ICPC, Kansas
retains jurisdiction over any child placed until
the child is adopted, reaches the age of
majority, becomes self-supporting, or is
discharged with concurrence of the appropriate
authority in the receiving state continues to
have financial responsibility for support and
maintenance of the child during the period of
placement in the receiving state.
THE COURT FURTHER FINDS Jorel Shonhar
is the proposed placement resource in the receiving
state of Illinois and is the parent of the child. The
child meets one or more of the requirements pursuant
to paragraph 5 of Regulation #7:
a. The child is in need of care due to sudden or recent
incarceration, incapacitation or death of a parent
or guardian; incapacitation means a parent or
gifirdian is unable to care for a child due to an
unexpected medical, mental or physical condition
of a parent or guardian.
OR
b. at least one of the children sought to be placed

34a

with the same proposed placement resource is four
years or younger;

□

Clerk of the District Court, Johnson County Kansas
09/19/19 2:45pm JL
OR

c. 0 the court finds that
is one of the
9
children in a sibling group sought to be placed and has
substantial relationship with the proposed placement
resource; substantial relationship means the proposed
placement has spent more than cursory time with the
child, is known to the child, and has established more
than minimal bond with the child;
OR
d. the child is currently in an emergency placement.
THE COURT FURTHER FINDS it is in the best
interest of the child to seek:
(K) Approval for provisional placement of the
child noted above in the receiving state pending
a more comprehensive home assessment of the
potential placement resource by the receiving
state an expedited placement decision
regarding final placement of the child, or
h. ( ) A comprehensive home assessment of the
potential resource in the receiving state and an
expedited placement decision without a
provisional placement of the subject child, or
c. ( ) Approval for a provisional placement with
a parent from whom the child was not removed
35a

and concurrence to relinquish jurisdiction upon
final approval.

y

This matter set for hearing on the 2nd day of October,
2019, at 8:30 a.m.
IT IS SO ORDER.

/S/ Kathleen Sloan
Judge of the District Court
Submitted by:

/S/ Erica Miller
Erica Miller
Assistant District Attorney
Johnson County, Kansas
100 North Kansas, Ave, Olathe, KS 66061
913153102, FAX 715-3040
ERICA.MILLER@JOCOGOV.ORG
Clerk of the District Court, Johnson County Kansas
09/19/19 2:45pm JL

36a

Appendix 6
SHELDON COTLER, PH.D. ROBERT L
DAVENPORT, PH.D. JACK JOSEPH, PH.D.
LICENSED CLINICAL PSYCHOLOGISTS

NORTH SHORE CONSULTATION CENTER
NORTHBROOKE COURT PROFESSIONAL PLAZA
1535 LAKE COOK ROAD, SUITE 111
(847)498 - 4744
FAX: (847) 498-4811

Forensic Mental Health Evaluation
Name: Jorel Shophar
Date of Birth:
Dates of Evaluation: February, March, 2020
Examiner: Jack Joseph, P.h.D. Clinical Psychologist
Date of Report: March 21, 2020
Referral & Background Information
Jorel Shophar was referred for a forensic mental
health examination in response to a requirement by
Kansas state officials that he pursue such an
evaluation. The purpose of this evaluation is to assess
for any mental health factors that might indicate a
mental health risk for Mr. Shophar to perpetrate
violence with any children in his care. He had
undergone a similar evaluation about four years ago
by Dr. George Athey, Jr., a clinical psychologist. In
his report dated February 1, 2016, Dr. Athey

37a

concluded that “(1) there are not mental health or
cognitive concerns to suggest risk for the type of
behavior that has been alleged, (2) the client
maintains a well-developed and benevolent
orientation to human relationships, (3) there ae no
indications of any attempt to dissimulate mental
health or to hide mental illness or violent
tendencies.” Dr. Athey went on to opine “it is my
opinion, within a reasonable degree of psychological
certainty, that the client poses no risk to his children
from the nature of his psychological adjustment and
state of mental health.” His recommendation were as
follows: “There are no indications of need for
treatment to correct any mental health problems that
would otherwise compromise his safety with his
children.”
Tests Administered & Information Sources
Adult Self Report Questionnaire
Daily Stress Index
Reynolds Intellectual Assessment Scales
Adult Retrospective Self-Concept Scale
Parenting Stress Index — 3rd Edition
Paulus Deception Scale
Thematic Apperception Test
Clinical Interviews

38a

Collateral Witness Interviews
Sasuah Angel Shophar (wife of 20-years)
Shophar Children Ages 17, 14, 5
Review of Records
Dr. George Athey, Jr., Report - February 1, 2016
Johnson County, Kansas Court Records-April 3,
2019
Summary & Recommendation
Jorel Shophar is a 46-year-old African American
male who is the owner of a security firm. He came
across in multiple clinical interviews and during
psychological testing as a calm, even-measured, and
articulate
individual
who
was
personable,
circumspect, and quite open with this examiner
throughout the testing sessions. He is a very
confident individual with a strong and stable sense of
self-worth. Jorel has also been tenacious in his efforts
to be reunited with his two biological children, J|
(born in 2011) and B|
(born in 2013). Both
children are currently wards of the state of Kansas
and are the biological product of a brief relationship
with another woman that he had had been involved
with in Kansas. Jorel and Angel would like to gain
custody of these children, be reunited with them, and
raise them to adulthood. They have not seen them for
nearly three years. Jorel is certain that both of these

39a

children have had traumatic experiences when with
their biological mother, with various foster parents,
and in institutions run by the state of Kansas.
Jorel and Angel were married in 2000 and have been
in a close relationship ever since. This couple have
three biological children ages 17, 14, 5 years old
whom they’ve raised together. This examiner has
met and interviewed their three children on multiple
occasions and have found them to be delightfully
charming well-behaved, responsible, and respectful
at all times.
Angel Shophar has also been
interviewed by this examiner. Angel is a soft-spoken,
gentle natured, and kind individual who has been a
wonderful mother to her three children and a great
partner to Jorel.
Results of the psychological testing on Jorel suggest
that all three of his children have been easy to raise.
Furthermore, Jorel comes across as being an
intelligent, open, energetic individual who manages
the stressors in his life quite effectively and has very
positive self-esteem. In short, Jorel is a well-adjusted
adult who does not qualify for any DSM-5 diagnosis.
Jorel is also strongly committed to his other two
children, J|
and B
|, who are still wards of
the state- of Kansas. Jorel and Angel are very
concerned for the welfare of these two children and
have been willing to expend whatever resources that

40a

are required in order to have them join the Shophar
family, and thus grow up in a stable, loving home.
Jorel and Angel are also prepared to provide J|
and B|
any and all services that they may
require in order to recover from their past traumatic
experiences.
This examiner concurs with the conclusion that were
expressed in Dr. Athey’s evaluation of February 1,
2016. J|
and B
would be totally safe and
secure while in the care of Jorel and Angel Shophar.
Furthermore, there was nothing in Jorel’s
psychological profile that would require that he
should enroll in an anger management program, a
batteries intervention course, or parenting classes.
The three Shophar children are a testament to his
Angel’s parenting acumen.

/S/ Jack Joseph
Jack Joseph, Ph.D.
Licensed Clinical Psychologist
Illinois License No. 071.005132

41a

Appendix 7
SHELDON COTLER, PH.D. ROBERT L
DAVENPORT, PH.D. JACK JOSEPH, PH.D.
LICENSED CLINICAL PSYCHOLOGISTS

NORTH SHORE CONSULTATION CENTER
NORTHBROOKE COURT PROFESSIONAL PLAZA
1535 LAKE COOK ROAD, SUITE 111
(847)498 - 4744
FAX: (847) 498 - 4811

Forensic Mental Health Evaluation Addendum
Name: Jorel Shophar
Date of Birth:
Examiner: Jack Joseph, P.h.D. Clinical Psychologist
Date of Addendum Report: June 1, 2020
Referral & Background Information
Jorel Shophar was referred to this examiner in
February and March of 2020 to undergo a forensic
mental health examination in response to a
requirement by Kansas state officials that he pursue
such evaluation. The purpose of that evaluation was
to assess for any mental health factors that might
indicate a mental health risk for Mr. Shophar to
perpetrate violence with any children in his care.
This examiner’s report dated March 21, 2020
concluded that Mr. Shophar is a well-adjusted adult
who has been an excellent parent to all three children
42a

that he and wife, Angel, have raised since their birth.
These children are currently 17, 14, and 5-years of
age.
The March 21st report further concluded that any
children in his care would safe, secure, and there was
nothing in Mr. Shophar’s psychological profile that
would suggest a propensity for domestic violence or
would require that he should enroll in an anger
management program, a batteries intervention
course, or parenting classes. A similar evaluation of
Mr. Shophar by Dr. George Athey, Jr., a clinical
psychologist in Kansas, came to the same conclusion
in 2016. The purpose of the current follow-up is to
reexamine these issues in light of updated
developments since March 21st including Kansas
Court proceedings, interviewing Mr. Shophar, again,
and interviewing his attorney, Rebecca Zarzecki,
again, and carefully scrutinizing various petitions
and documents which may shed additional light on
Mr. Shophar’s history with his biological children,
|, and their “journey” through the
|and B|
Kansas Court system.
Detailed Document Review and Updated Developments

Although this examiner previously reviewed the 2015
and 2018 Johnson County, Kansas Children in Need
Shophar and
of Care Petitions for B
Shophar, these petitions were never directly

43a

discussed with the examiner’s March 21, 2020 report.
It is also assumed that Dr. George Athey Jr., 2016
evaluation of Jorel Shophar reviewed the 2015
petitions. At the time the September, 2015 petitions
were reported, B|
chronological age was about
was about 3-years 9
2-years 8 months and J|
months. At the time these children were initially
taken into custody by Kansas authorities, both
children resided with their biological mother, Krissy
Gorski. In August, 2015, the Kansas Department for
Children and Families (DCF) received a report
involving allegations of physical abuse and a lack of
supervision. The DCF worker was Kara Nicholson.
The 2015 Court Petitions for both children stated
that each parent accused the other being physically
abusive with children although Ms. Gorski admitted
that she had never actually witnessed Mr. Shophar
hit the boys. In particular, Ms. Gorski leveled a
litany of allegations toward Mr. Shophar including
Ms. Nicholas
that he threatened to kill her.
interviewed both children together after Ms. Gorski’s
interview concluded. The petition reports of both
children, including a follow-up interview concluded.
The petition reports of both children, including a
follow-up interview on September 3, 2015, where
was interviewed by Erin Miller-Weiss,
J
suggested that they said lots of nice things about
mother but accused their father of variety of abusive
behaviors. In carefully reviewing these interviews,

44a

this examiner believes that J|
had been coached
by Ms. Gorski and was also the victim of alienation
efforts by her toward Mr. Shophar. Not surprisingly,
there apparently was not clear and convincing
evidence in either case so the cases were
unsubstantiated on both parents. On September 28,
2015, the children were placed into DCF custody by a
Kansas judge due to the fact that Mr. Shophar and
Ms. Gorski filed Protection from Abuse actions
against each other in regards to the children. The
boys were referred to a foster care contractor for out
of home placement.
The following is a partial chronology as detailed by
the April 12, 2018 Children in Need of Care Petition
for
Shophar by the Johnson County, Kansas
Court System and DCF.
•
Krissy Gorski worked with Kansas officials on the
reintegration
process
and
complete
her
reintegration plan on June of 2016 at which time
the children were released from DCF custody and
placed into her home.
•

On April 27, 2017, DCF received concerns for
[, age 5, being a child without parental
control. Concerns included that
had been
talking about “peepee in the butts” and when asked
about this,
stated that he had learned this
from a man. It is highly significant to note that
although the 2018 report does not mention this, the

45a

DCF concerns that they had received on April 27,
2017 came about due to the visits that Jorel
on March 29,
Shophar had with B|
and
2017 and April 26, 2017. During these two visits,
Mr. Shophar became very alarmed when the boys
started speaking in sexually explicit ways and
“got naked” in his vehicle as well. It was on
April 27, 2017 the next day, that Mr. Shophar
reported his concerns to the Topeka Police, the
Kansas Bureau of Investigation, Ben Cleaves, the
co-parenting therapist, the children’s therapist, and
others.
•

On May 3, 2017, Mr. Shophar filed a Protection
Order against Krissy Gorski in the Shawnee County
Court System, he also sent an email to Judge
Gyllenborg to notify her of this filing, and he visited
the Topeka Police Department in person for the
second time. Although Judge Mattivi from the
Shawnee Court refused to issue the Order of
Protection on May 3, 2017, she did set a hearing
date for May 24, 2017, to rule on the matter. On
May 24, 2017, the hearing took place before Judge
Mattivi.
She refused to issue the Order of
Protection and dismissed the case. This occurred
despite the DCF investigation that was launched on
April 27, 2017 and as second concern that DCF
received on May 15, 2017 with similar accusations
of sexual and emotional abuse of
and B
by their mother, Krissy Gorski. The 2018 Need
Petitioner Report suggest that upshot of the
complaints received by DCF from April 27, 2017 and

46a

•

•

May 15, 2017 was a referral made at some
unspecified later date for to Family Preservation
Services. The same date that Jorel Shophar’s
request for an Order of Protection was dismissed, he
went to the FBI in Kansas City to make a report.
However, despite all of Mr. Shophar’s efforts,
apparently no one did anything to protect these
children from their mother until nearly a year later
April, 2018. In fact, if anything, the Kansas Courts
moved aggressively against Mr. Shophar to block
him from his children’s lives.
On May 10, 2017, after practically shouting from
the rooftops to anyone who would listen that his
children were in grave danger, Mr. Shophar had his
last visit with B
|. It was during
and
this visit that he contacted the Topeka Police
Department again and communicated with
Sergeant Arensdorf. In his communications with
this officer on May 10th and 11th, Sergeant
Arensdorf suggested to him that he should not
return the children to their mother if he felt that
they would be in danger there (two audio recordings
were provided to this examiner).
On May 12, 2017, after having the children for two
days, Mr. Shophar decided to bring the children to
the Topeka Police Department so the police could
verify that the children were being kept safe by
their father. At the police station on May 12th,
another police officer notified Mr. Shophar that Ms.
Gorski had gotten a Court Order directing him to
return the children to her immediately.

47a

Subsequently, he obeyed the Court Order and left
the children with the Topeka Police on May 12,
2017. Ms. Gorski then picked up the boys and the
police station. He has never seen or had any contact
with
or B
since then.

All of these details regarding Mr. Shophar’s alarming
concerns and his attempts to protect his children
were never mentioned in the April, 2018 Need
Petition Report. Instead, that report noted Mr.
Shophar in May, 2017, “absconded with the children
and did not return them after his visit.” “In Johnson
County, Kansas,...he was ordered to only have
supervised parenting time after this occurrence,
which he has not exercised. Jorel Shophar is alleged
to have moved out of state and has not availed
himself to any follow-up court hearings that have
been held.” In order words, the April, 2018 Need
Petition Report suggested that he had abandoned his
children. Mr. Shophar’s narrative backed up by
corroborating evidence suggested what really
happened. Twelve days after he turned his children
over to Topeka Police, Judge Mattivi in Shawnee
County dismissed his Order of Protection case (on
May 24, 2017) which then cleared the path for Krissy
Gorski to disappear with the children. For nearly the
next year, Mr. Shophar believes that Ms. Gorski was
traveling between Michigan, Kansas, and Missouri to
keep his children hidden from him all while filing
more false allegations against him. Instead of
abandoning his children, he had been continually
trying to locate the whereabouts of his children. From

48a

May, 2017, to April, 2018, it was Krissy Gorski who
was hiding the children from Mr. Shophar. Since
April, 2018, after the State of Kansas again removed
the children from Ms. Gorski s care, it has apparently
been the State of Kansas that has kept his children’s
whereabouts a secret and has even blocked Mr.
Sjg^mr from communicating with B|
and

By April, 2018 Kansas authorities finally caught up
with Krissy Gorski based on a fresh litany of
horrendously egregious parenting behaviors and
removed the children from her home again. However,
instead of recognizing that Mr. Shophar had been
trying to expose Mr. Gorski to protect his children
and return the children to Mr. Shophar, they
appointed a permanent custodian for his children.
The April, 2018, Need Petition Report detailed how
this came to be. That report noted that Krissy Gorski
has a history of prostitution and both her children
told the authorities that “...she is gone all night long,
and other people what them.” DCF received these
concerns on April 27, 2017. On May 15, 20^, DCF
received a concern for emotional abuse of <JH|’ age
5 and B|
|, age 4, by their mother, Krissy Gorski,
by an unknown
and alleged sexual abuse of J|
perpetrator.
The allegations included that Ms.
Gorski is teaching the boys sexually mature behavior
and they are exhibiting unusual sexual knowledge.
In addition, j|
had talked about tasting and
eating private parts and stated he has kissed a penis.
The 2018 Petition went on to state that the children
denied any sexual conduct of any form but it did not

49a

state exactly how or who investigated these
allegations in 2017 or what was concluded from this
“investigation”. On March 30, 2018, DCF received a
concern for physical neglect of j|
and B
ages 6 and 5, by their mother, Krissy Gorski.
Allegations included that she may be using drugs,
she had been observed as appearing inebriated or
high, and was repeatedly using former foster parents
to babysit the boys. The DCF case worker requested
a complete urinalysis on Ms. Gorski five days later.
It was positive for opiates, methamphetamines,
benzodiazepines, and oxycodone. Amazingly, the
children remained in mother care until April 12,
2018. By then, she left multiple messages to DCF
which suggested she was under the influence of drugs
and/or alcohol, a follow-up urinalysis was again
positive methamphetamines, she was arrested for
driving under the influence and child endangerment,
she was abusing Xanax, and leaving bizarre,
paranoid messages with DCF and police.
Ironically, the concerns that Jorel Shophar had
expressed to the Kansas authorities in the 2015
Children in Need Petition, which suggested that
Krissy Gorski was an abusive and neglectful parent
with lengthy history of prostitution, drug abuse, and
multiple felony convictions, were at that time
apparently not believed by Johnson County, Kansas
officials. However, the April 2018 Children in Need
Petition clearly supported his allegations toward Ms.
Gorski, which included that she is a chronic drug
abuser, a long-time prostitute, and a mentally
unstable individual who is clearly not capable of

50a

parenting any children. On April 12, 2018, a Kansas
and B
from her home the
judge removed
second time.
Throughout Mr. Shophar’s involvement with the
Kansas Courts, the only allegations leveled by
anyone that he was an abusive and/or neglectful
parent toward j|H or B|
came from Krissy
Gorski, the chronic drug abuser, prostitute, and
convicted felon who should have had absolutely no
credibility. Her allegations were never corroborated
by anyone else including the State of Kansas. In
2019, according to Mr. Shophar, there was Kansas
judge’s order that J|
and B
be reunited
with Jorel and Angel Shophar and be reintegrated
into their family’s lives. On June 7, 2019 there was
a telephone conference with the Kansas KVC people
and Jorel to presumably develop a “care plan” to
accomplish this reunification goal. Inexplicably,
according to Jorel, Kansas officials have since
reneged on this commitment. Neither he nor his wife
or
Angel have seen or had any contact with J|
since May 12, 2017 despite his unrelenting
B
efforts to track down their whereabouts. The last
they had heard, B|
was in a foster home and
was struggling in a psychiatric hospital and
J
occasionally was put on restraints there. An internet
search by Mr. Shophar for the past two years
suggests that Krissy Gorski has continued to
evidence her criminal and drug addled path including
the following:
• March 28, 2018 - Johnson County, Kansas arrested for DUI under the influence of Meth.

51a

•
•
•

April, 2018 - Johnson County, Kansas - arrested
for Theft at a Target Store.
February 19, 2019 — Clay County, Missouri —
arrested for criminal drug possession.
March 6, 2019 - Johnson County, Kansas —
convicted for Identity theft.

This examiner continues to maintain the position
that Jorel Shophar is well-adjusted adult who has a
long history of being an excellent parent to the three
children that he and Angel have raised since their
birth. In sharp contrast to Krissy Gorski, he has no
criminal history, has never abused any drugs or
alcohol, and is a law-abiding citizen who runs his own
business. He has submitted to in-depth Forensic
Mental Health Evaluations by Dr. Georg Athey Jr. in
2016 and to this examiner in 2020 and neither of
these evaluations suggested that he has ever
exhibited or been predisposed to any inappropriate
anger or domestic violence issues toward his partner
or any of his children.
Despite the narrative
contained in the April, 2018 Children in Need
Petition by Johnson County, Kansas, he has not
Shophar but instead
abandoned
and B
has remained on an unwavering course in the past
three years to attempt to discover their whereabouts
and become their permanent parent despite all the
road blocks that he has encountered. The most recent
block occurred on April 14, 2020 in a hearing in a
Johnson County, Kansas courtroom. Judge Sloan
presided over the hearing. According to Mr. Shophar,
the main purpose of this hearing was to determine if
he had complied with this examiner’s initial Forensic

52a

Mental Health Evaluation which was completed in
March, 2020. This topic was never brought up at the
10-minute hearing. Instead, Richard Klein, J|
and B|
Guardian Ad Litem, recommended to
Judge Sloan that both children needed to be
immediately moved out-of-state to an undisclosed
No reason was given for this
location.
recommendation but Judge Sloan approved it. All of
the participants at this hearing including Jorel
Shophar and Krissy Gorski took part via a Zoom-like
technology. Only Judge Sloan was physically in the
Johnson County Courtroom which was, due to the
Covid-19 Virus, closed at the time. There was also
nothing mentioned by the judge or GAL regarding the
length of this placement or whether it would ever be
reviewed by anyone.
On May 27, 2020 Jorel Shophar was served by local
sheriffs deputy with a request by Krissy Gorski for
an Order of Protection to be issued against him. The
hearing to determine whether an Order of Protection
should be issued was set to be heard by Judge
Gyllenborg for June 4, 2020 in the Johnson County,
Kansas Courthouse. Among a host of allegations by
Ms. Gorski, she reportedly has claimed that Mr.
Shophar has been stalking her for the past few
months. According to Mr. Shophar, he has had
absolutely no direct contact with Ms. Gorski since
May 10, 2017 and doesn’t have the slightest clue
where she lives nor does he have any of her current
contact information. He also has no desire to contact
this person.

53a

What is particularly perplexing to this examiner is
that Kansas, like every other state in the United
States, has countless children that are their wards
due to being the victims of egregious parental abuse
and neglect. In most states, the child welfare agency
cannot find enough quality homes that are willing to
permanently raise such children. In the case of
“land B|
‘
J
phophar, it is clear to this
examiner that Krissy Gorski should have had her
parental rights permanently terminated in favor of
being raised in 2015 by what should have recognized
as their rightful parents, Jorel and Angel Shophar.
Yet it would seem that the State of Kansas would
prefer to leave these children in the care of a string
of foster homes and even in institutional settings.

/S/ Jack Joseph
Jack Joseph, Ph.D.
Licensed Clinical Psychologist
Illinois License No. 071.005132

54a

Appendix 8: All Seven of the Petitioner’s 3 hour
visits with his children in 2017. Documented and
witnessed on 4 occasions by a Court ordered therapist
and Parenting Instructor; Janet Mitchell.

1. https://www.facebook.com/iorelrshophar/posts/
1482300731789099
2. https://www.facebook.com/iorelrshophar/posts/
1489615544390951
3. https://www.facebook.com/iorelrshophar/posts/
1498585083493997
4. https://www.facebook.com/iorelrshophar/posts/
1502718319747340
5. https://www.facebook.com/iorelrshophar/posts/
1524965050856000
6. https://www.facebook.com/iorelrshophar/posts/
1525056220846883
7. https://www.facebook.com/iorelrshophar/posts/
1527144833971355

55a

Appendix 9: The Petitioner documented events
through audio and video to protect himself and his
other family from the beginning. He classified each
video evidence as Part 1, Part 2, and Part 3. There
is more evidence that the Petitioner has not made
public. This evidence has been used by State and
Federal Courts concerning this matter.
Part 1: https://www.vimeo.com/279097759
Part 2: https://www.vimeo.com/278003779
Part 3: https://www.vimeo.com/279064934
Appendix 10:
Krissy Gorski has practiced
prostitution in the State of Missouri and State of
Kansas, and State of Michigan, even to this day in the
dangerous times of COVID-19, using the name
KAYLA KRISSY KAYCE, publically soliciting
herself for prostitution with strangers, which resulted
in children being sexually abused in her home. All
Courts in State and Federal are aware of the online
attachments, which were used in Court as evidence.
https://sumosear.ch/images/phone/913-265-1764/5
https://eccie.net/showthread.php ?p=1061575590

56a

Appendix 11. This is evidence that the Petitioners
home was a place of events for the entire
neighborhood, with no problems with children.
https://www.vimeo.com/279097759 Time 2:57 - 4:04

Appendix 12 online evidence of audio recording of
Krissy Gorski, who contrive falsehood in the Court of
Law, in State and Federal Courts in Michigan,
Kansas and Illinois, for over 5 % years, even to this
day, and never being penalized for perjury.
https://www.vimeo.com/279097759
https://www.vimeo.com/279097759
https://www.vimeo.com/279097759
https://www.vimeo.com/279097759

57a

Time 9:05 —9:28
Time 9:57 -10:09
Timel2:30 —13:18
Timel3:49 —15:21

